No. 20-303

 

In THE
Supreme Court of the United States

UNITED STATES OF AMERICA,
Petitioner,

Vv.

JosE LUIS VAELLO MADERO,
Respondent.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT

BRIEF OF THE DISTRICT OF COLUMBIA,
GUAM, CONNECTICUT, DELAWARE,
HAWAII, MARYLAND, MASSACHUSETTS,
MINNESOTA, NEVADA, NEW JERSEY,
NEW MEXICO, NEW YORK,

THE NORTHERN MARIANA ISLANDS,
OREGON, PENNSYLVANIA, RHODE ISLAND,
VERMONT, AND VIRGINIA AS AMICI CURIAE
IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,497 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 7, 2021.

 

Colin Casey ‘Mogan
Wilson-Epes Printing Co., Inc.
